                     U.S. DEPARTMENT OF ENERGY
                    OFFICE OF INSPECTOR GENERAL




                      AUDIT OF CONTROLS OVER
                 THE ADP SUPPORT SERVICES CONTRACT




The Office of Inspector General wants to make the distribution
of its reports as customer friendly and cost effective as
possible. Therefore, this report will be available
electronically through the Internet at the following
alternative addresses:


            Department of Energy Headquarters Gopher
                          gopher.hr.doe.gov

            Department of Energy Headquarters Anonymous FTP
                         vm1.hqadmin.doe.gov

            Department of Energy Human Resources and
                    Administration Home Page
                    http://www.hr.doe.gov/ig

  Your comments would be appreciated and can be provided on the
         Customer Response Form attached to the report.


              This report can be obtained from the
                    U.S. Department of Energy
         Office of Scientific and Technical Information
                           P.O. Box 62
                   Oak Ridge, Tennessee 37831




Report Number:   CR-B-97-04         Capital Regional Audit Office
Date of Issue:   August 15, 1997    Germantown, Maryland 20874



                      AUDIT OF CONTROLS OVER
                 THE ADP SUPPORT SERVICES CONTRACT
                          TABLE OF CONTENTS


                                                     Page

SUMMARY .........................................     1

PART I - APPROACH AND OVERVIEW ..................     3

          Introduction ...........................    3

          Scope and Methodology ................... 3

          Background .............................. 4

          Prior Audit Reports...................... 4

PART II    -   FINDING AND RECOMMENDATIONS ......... 6

          Management of ADP Support Service Task
          Assignments ............................ 6

PART III - MANAGEMENT AND AUDITOR COMMENTS....... 12
                    U.S. DEPARTMENT OF ENERGY
                   OFFICE OF INSPECTOR GENERAL
                    OFFICE OF AUDIT SERVICES

                     AUDIT OF CONTROLS OVER
                THE ADP SUPPORT SERVICES CONTRACT


Audit Report Number:   CR-B-97-04

                              SUMMARY


     The Federal Acquisition Regulation requires the Department
of Energy (Department) to ensure that efficient methods and
effective cost controls are used over its cost-reimbursement
contracts. Our objective was to determine whether the program
offices at the Department's Headquarters were managing their
Automated Data Processing (ADP) support services contract costs.

     The Headquarters program offices did not effectively manage
the ADP support services contract by fully evaluating and
controlling costs for Automated Office Systems Support and Local
Area Network administration (AOSS/LAN) task assignments.
Although the AOSS/LAN task assignments reviewed covered similar
services in each program office, the number of contractor full
time equivalents (FTEs) used and cost to complete the task
assignments varied significantly in comparison to the number of
computer users that each task assignment supported. This
occurred because in all but one instance the AOSS/LAN task
assignments were not based on detailed analysis of user
requirements and related costs. In addition, none of the task
assignments were benchmarked against best practices from internal
or external sources. Instead, program offices relied mainly on
available budget and historical contractor staffing levels to
determine task assignment funding. We estimated that the
application of benchmarks could reduce the cost of support
services by as much as $2 million annually with total potential
savings over 3 years of more than $6 million.

     We recommended that the Deputy Assistant Secretary for
Information Management, in conjunction with the program offices,
implement effective costs controls by establishing task
assignments for AOSS/LAN support based on a detailed analysis of
user requirements and related costs and benchmarking tasks
against best internal practices and best practices in other
Federal agencies and the private sector.

     Management agreed with the recommendations and stated that
controls such as analyses of user requirements and benchmarking
tasks are effective management tools. However, management did
not outline corrective actions taken or planned along with target
dates for the actions. Management did state, however, that once
they have fully developed the Work Break Down Structure, they
will develop an action plan to implement the recommendations for
more detailed analysis of user requirements and benchmarking.
                                     __________/s/__________
                                    Office of Inspector General


                               PART I

                        APPROACH AND OVERVIEW


INTRODUCTION

     In March 1995, the Department awarded a cost-plus-award-fee
contract to DynCorp valued at approximately $246 million over 5
years for ADP support services at Headquarters. The performance
period for the contract was a 3-year base period with two 1-year
options. The contract statement of work identified 24
information management functional areas that required technical
support services, including Automated Office Systems Support and
Local Area Network support.

     The purpose of our audit was to evaluate the cost-plus-award-
fee contract for ADP support services at Headquarters. Our
objective was to determine whether the Department's program
offices at Headquarters were managing their ADP support services
contract costs.

SCOPE AND METHODOLOGY

     We reviewed Federal regulations related to contract
management, the ADP support services contract, and related Fiscal
Year 1996 task assignments. We interviewed personnel from the
Office of Procurement and Assistance Management and the Office of
Information Management who were responsible for contract
administration, including payment of contractor vouchers. We
also interviewed Technical Monitors (TMs) in each program office
who were responsible for managing the AOSS/LAN task assignments
and evaluating contractor performance. Interviews were also
conducted with contractor personnel responsible for preparing
task management plans and supervising the contractor staff
dedicated to supporting the AOSS/ LAN task assignments.

     We selected AOSS/LAN task assignments for review because the
program offices spent over $8.5 million on these tasks for FY 96,
which represented about 27 percent of the total FY 96 ADP support
service contract costs at Headquarters. In addition, these task
assignments were common to many program offices, which allowed
for comparative analysis of how the program offices provided
support to their computer users. The task assignments provide
service to over 4,500 Federal and contractor users located in
Washington, D.C. and Germantown, Maryland.

     Documentation reviewed included task management plans
prepared by the contractor that describe the services to be
provided to the program offices under each task assignment. We
also reviewed the monthly technical status reports provided by
the contractor to the TMs. These technical status reports
contained monthly total labor hour and cost data for the period
under review as well as narrative information regarding the
execution of each task assignment.

     The audit was made in accordance with generally accepted
Government auditing standards for performance audits and included
tests of internal controls and compliance with laws and
regulations to the extent necessary to satisfy the audit
objective. Because our review was limited, it would not
necessarily have disclosed all internal control deficiencies that
may have existed. We did not formally assess the reliability of
computer-processed data because we did not consider it to be
necessary to accomplish our audit objective. We did, however,
use such data for limited purposes and performed alternative
procedures to satisfy ourselves that such data was reliable.

      The audit was performed from August 1996 through June 1997
at the Department's Germantown, Maryland and Washington, D.C.
locations. The results of the audit were discussed with
officials from the Office of the Deputy Assistant Secretary for
Information Management and the Office of the Deputy Assistant
Secretary for Procurement and Assistance Management on June 17,
1997.

BACKGROUND

     DynCorp subcontracted specific functional areas of the
contract to Computer Data Systems, Incorporated (CDSI). The
functional areas subcontracted to CDSI represented, at the time
of the award, approximately 50 percent of the estimated labor
hours to be utilized under the contract. One of the functional
areas that CDSI is responsible for is AOSS/LAN support. AOSS/LAN
support is used by all program offices at Headquarters, including
services such as dial-in hotline assistance to end users with
software problems and questions, software and hardware
installation and upgrades, application maintenance and support,
and LAN technical administration and support.

     Under the ADP support services contract, work to be
performed is defined by task assignments. Program offices have
Information Management personnel who develop statements of work
for ADP support service needs. Each program office also has TMs
who are responsible for monitoring the work performed by the
contractor. The statements of work are submitted to the
Contracting Officer's Representative (COR), who reviews them to
ensure that the statements are reasonable and within the scope of
the contract. The COR then prepares a task assignment and
forwards it to either DynCorp or CDSI, depending on which
functional area is involved in the statement of work. Once the
task has been assigned, the contractor prepares a management plan
that sets forth in general terms what work will be performed and
how much it should cost. The management plan must be approved by
the COR and TM before the contractor can begin work.
PRIOR AUDIT REPORTS

     The Office of Inspector General previously issued a report
dealing with management of a prior contract for ADP support
services at Headquarters. In report CR-OC-89-1, Oversight of a
Support Services Contractor, dated January 11, 1989, we concluded
that the Department did not have sufficiently detailed data to
evaluate the reasonableness of costs or to identify the specific
causes of contract cost overruns. We also concluded that a
contractual limitation on the charging of administrative time was
not enforced and that criteria for evaluating the contractor's
performance for fee determination was not consistently followed.

     In addition, the Office of Inspector General issued an audit
report regarding selected contracts for information resource
management and support at the Federal Energy Regulatory
Commission. In report AP-BC-93-01, Audit of Information Resource
Management at the Federal Energy Regulatory Commission, dated
June 9, 1993, we determined that contractors did not fully comply
with contractual provisions, claims for reimbursement were not
adequately supported, and services performed may have included
inherently governmental functions.


                                PART II

                      FINDING AND RECOMMENDATIONS

          Management of ADP Support Service Task Assignments


FINDING

     The Federal Acquisition Regulation requires the Department
to manage its cost-reimbursement contracts to ensure that
efficient methods and effective cost controls are used.
Headquarters program offices did not effectively manage the
contract for ADP support services by fully evaluating and
controlling costs for Automated Office Systems Support and Local
Area Network administration (AOSS/LAN) task assignments.
Although the AOSS/LAN task assignments reviewed covered similar
services in each program office, the number of contractor full
time equivalents (FTEs) used and cost to complete the task
assignments varied significantly in comparison to the number of
computer users that each task assignment supported. This
occurred because in all but one instance the AOSS/LAN task
assignments were not based on detailed analysis of user
requirements and related costs. In addition, none of the task
assignments were benchmarked against best practices from internal
or external sources. Improving the management over task
assignments could reduce the Department's AOSS/LAN support costs
by as much as $2 million annually with total potential savings
over 3 years of more than $6 million.

RECOMMENDATIONS

     We recommend that the Deputy Assistant Secretary for
Information Management, in conjunction with program offices,
implement effective cost controls by:

     1.   Establishing task assignments for AOSS/LAN support
          based on a detailed analysis of user requirements
          and related costs.

     2.   Benchmarking the AOSS/LAN task assignments against
          best internal practices and best practices in other
          Federal agencies and the private sector.

MANAGEMENT REACTION

     Management agreed with the recommendations and stated that
controls such as analyses of user requirements and benchmarking
tasks are effective management tools. Management also provided
comments regarding certain facts and statements made in the
report. However, they did not outline corrective actions taken
or planned or target dates for the actions. They stated that
once they have fully developed the Work Break Down Structure, a
key to improving effective management of support service tasks,
they will develop an action plan to implement the recommendations
for more detailed analysis of user requirements and benchmarking.
Detailed management and auditor comments are included in Part III
of this report.

DETAILS OF FINDING


CONTRACT MANAGEMENT POLICIES AND PRACTICES

     The Federal Acquisition Regulation, section 16.301-3(b)
requires the Department to effectively manage its cost-
reimbursement contracts. Specifically, the regulation directs
the Department to provide appropriate oversight during contract
performance that ensures efficient methods and effective cost
controls are used.

TASK ASSIGNMENT MANAGEMENT

     Headquarters program offices did not effectively evaluate
and control costs for AOSS/LAN task assignments. Although the
program offices contracted for like or similar work in their
AOSS/LAN task assignments, the number of contractor FTEs used and
cost to complete the task assignments varied significantly in
comparison to the number of computer users that each task
assignment supported.

Task Assignment Staffing

     For the 12 program offices included in our review, the
contractor FTE levels and users supported for the task
assignments did not compare with one another even though the
tasks included like or similar functions. We reviewed the
AOSS/LAN task management plans of the different program offices
and found that the task assignments included similar types of
functions. For example, for the most part, all the tasks
included the functional areas of:

     o Maintenance and support of automated information
       systems;

     o Helpdesk problem solving/troubleshooting
       for end-user software and hardware problems;

     o Installation and configuration of hardware
       and software;

     o Backup, recovery, and protective procedures;
       and LAN administration and support, development
       and maintenance of small systems applications, and system
       reviews/analytical support.

     According to Departmental TMs and contractor Task Leaders,
the majority of contractor FTE labor was used in the helpdesk and
LAN administration functions. These two functions were covered
in all of the task assignments. The task assignments also
supported similar types of software applications used by each
program office such as word processing, spreadsheet,
communications, scheduling, database, and graphics software.

     Significant inconsistencies existed in the number of users
supported by each contractor FTE assigned to perform the AOSS/LAN
support tasks. For example, one program office used 15
contractor FTEs to support 628 computer users, while another used
25 contractor FTEs to support 708 users. In contrast, some
program offices supported different number of users but charged
almost the same number of contractor FTEs. For example, one
program office used 8 contractor FTEs to support 270 users, while
another program office used the same number of FTEs to support
over 1,200 users. Officials from the program office that
supported over 1,200 computer users stated that their contractor
FTE-to-user ratio was different because budget constraints would
not support additional contractor FTEs. However, even though the
program office indicated that they could have used more
contractor FTEs, they were able to use a lower number of
contractor FTEs by making adjustments such as accepting longer
response time to problems reported to the helpdesk.

     To illustrate the significant differences in the number of
contractor FTEs used to support task assignments, the Table below
compares the number of users for all 12 program offices to the
number of contractor FTEs providing support. The last column of
the Table also shows the number of users supported per contractor
FTE.

                             Table 1
    Computer Users Supported Compared to Contractor FTE Used
                        Estimated     (1)      Users
                        Computer Contractor     Per
                         Users       FTEs     Contractor
    Program Office      Supported Per Task      FTE

Nuclear Energy            169         9               19
Office of the Secretary   116             5                          23
Energy Research           409            17                          24
Field Management          74              3                          25
Nonproliferation and      708            25                          28
Nat. Security (2)
Fossil Energy             225             7                          32
Energy                    423            13                          33
Efficiency/Renewable
Energy
Chief Financial Officer   270             8                          34
Defense Programs          628            15                          42
Environment, Safety and   100             2                          50
Health
General Counsel           220            4                      55
Human Resources and     1,233            8                     154
Administration

             Totals        4,575        116         (3)         39

 (1)     Contractor FTE calculated by determining total labor
         hours charged to each task divided by 1,880 hours. We
         arrived at 1,880 hours by taking a typical man-year of
         2,080 hours and deducting a factor of 200 hours for
         indirect hours such as annual leave.

 (2)     Nonproliferation and National Security task assignments
         were combined.

 (3)     Average number of FTEs.

User Support Cost

       The costs to support computer users varied significantly
among the program offices. For example, one program office spent
about $780,000 to support 423 users, while another program office
spent over $1.3 million to support 409 users. Overall, the
AOSS/LAN task assignment costs ranged from about $440 to over
$3,500 per user with an average of about $1,800 annually to
support each user in the program offices. Since most program
offices did not develop detailed cost estimates for how much the
task assignments should cost, we could not evaluate the
reasonableness of $1,800. Table 2 shows the task assignment
cost, the number of computer users, and cost-per-user for each of
the 12 program offices.

                                Table 2
                        Cost Per User Supported

                           Task       Estimated               Cost
                           Assignment Computer                per
                           FY 1996     Users                  User
                            Cost      Supported               Supported
       Program Office

Human Resources and          $538,800    1,233            $     437
  Administration
General Counsel               235,300         220             1,070
Environmental, Safety      145,100      100    1,451
and Health
Defense Programs        1,014,500       628    1,615
Chief Financial Officer   462,200       270    1,712
Energy Efficiency/        787,400       423    1,861
  Renewable Energy
Fossil Energy             506,100       225    2,249
Office of the Secretary   344,800       116    2,972
Field Management          223,300        74    3,018
Nonproliferation and    2,298,900       708    3,247
  National Security
Energy Research         1,377,200       409    3,367
Nuclear Energy            595,400       169    3,523

        Totals                                  (1)
                         $8,529,000   4,575   $1,864

(1) Average user cost.

       The significant cost differences to support a user is
an indicator that the number of users was not a factor when
determining what the Department should pay for AOSS/LAN support.
Also, it should be expected that each program office would
receive AOSS/LAN support services at similar costs since the
same contractor provides the technical staff.

   PROGRAM OFFICES USE OF DETAILED REQUIREMENTS AND BENCHMARKS

      With the exception of Energy Research, program offices did
not establish task assignments based on a detailed analysis of
user support requirements and related costs. Furthermore, none
of the program offices benchmarked their AOSS/LAN support costs
with other program offices or external entities with similar
needs. Instead, the program offices relied mainly on available
budget and historical staffing levels in determining current year
needs. In some cases, the program office TMs stated that the
contractor was aware of the available budget before they
developed the management plan. This could allow the contractor
to, in effect, "back in" to the task assignment cost for the
fiscal year and spend the budgeted amount available.

       Contractor personnel responsible for generating the task
management plans concurred that available funding plays a major
role in how much each program office spends on AOSS/LAN support.
While available funding and previous staffing levels play a role
in determining the appropriate staffing level and costs, the main
determinant of the cost of these task assignments should be a
detailed analysis of specific projects or functions to be
supported by the task assignment along with estimates of what the
tasks are going to cost. In addition, a comparison against a
benchmark to help validate the estimates should be used.
Performance indicators, such as benchmarks, are consistent with
the intent of the Government Performance and Results Act and
should help the Department measure the relative effectiveness and
efficiency of resources devoted to ADP support activities.

        In commenting to our initial draft report, management
indicated that in conjunction with the Headquarters Collaboration
Group, the Department is developing a Work Break Down Structure
that will allow for improved ADP support service task
assignments. The Department also believed that these improved
task assignments will be indicative of substantial differences in
the tasks that are not currently apparent because of the lack of
precision in task descriptions. While we agree that the Work
Break Down Structure will allow for improved task assignments and
that differences exist among the tasks, we believe, based on our
audit, that there will continue to be a high degree of similarity
among the AOSS/LAN task assignments.

       ESTABLISHING NEEDS, BENCHMARKS, AND COST ESTIMATES

         Until the program offices establish task assignment
requirements based on a detailed analysis of user requirements
and related costs and benchmark their tasks against best
practices, they will not have assurance that costs paid for
AOSS/LAN support services are reasonable and cost effective. At
the minimum, we estimate that AOSS/LAN costs could be reduced if
the program offices used benchmarks to establish an acceptable
ratio of contractor FTE-to-users. For example, the contractor
FTE-to-user ratio in the program offices ranged from 1 FTE to
support 19 users to 1 contractor FTE to support 154 users. The
average of this range was 1 FTE to support 39 users. If each
program office used this average as a benchmark and applied it to
their task assignments, the Department could reduce their
AOSS/LAN support costs by as much as $2 million annually with
total potential savings over 3 years of more than $6 million.
Although cost savings would increase proportionally as the ratio
of contractor FTE-to-user increased, we applied the average
because it represented the most conservative approach to
establishing a benchmark of FTE-to-user ratio.

     In responding to the initial draft report, management agreed
that there may be opportunities to achieve savings through
benchmarking. However, management added that the estimated cost
savings cannot be supported because it was not based on
benchmarking, but rather it was based on an average ratio of
contractor FTE to number of users supported. As explained in the
report, the average ratio was used because it represented a
reasonable estimate of the savings available to the Department
through benchmarking because if the program offices were to
benchmark their task assignments against one another, it would be
reasonable to assume that the benchmark would fall within the
range of ratios used.

                            PART III

                 MANAGEMENT AND AUDITOR COMMENTS


     The Office of the Deputy Assistant Secretary for Information
Management and the Headquarters program offices agreed with the
report's recommendations and stated that controls such as
analyses of user requirements and benchmarking tasks are
effective management tools. However, management did not outline
corrective actions taken or planned or target dates for the
actions. Management added that once they have fully developed
the Work Break Down Structure, a key to improving effective
management of support service tasks, they will develop an action
plan to implement the recommendations for more detailed analysis
of user requirements and benchmarking. A summary of management's
comments and auditor's response follows.

GENERAL COMMENTS

     Although management agreed that the report's recommendations
were sound, they included specific comments about certain
statements made in the report.

     Management Comments. Management believed that the
statements "the number of contractor full time equivalents (FTEs)
used and cost to complete the task assignments varied
significantly" and "This occurred because in all but one instance
the AOSS/LAN task assignments were not based on detailed analysis
of user requirements and related costs" were misleading.
Management added that these statements were misleading because
there was no detailed analysis of each task in the draft report
and that program offices require differing levels of AOSS/LAN
support due to sophistication of users, response times, expertise
requirements, and multiple locations of users.

     Auditor Comments. We agree with management that there were
no detailed task analyses of the task assignments related to user
requirements and costs. As stated in the report, the lack of
detailed task analyses was one of the main reasons why the FTE
levels varied significantly.   Even though management believes
that sophistication of users, response times, expertise
requirements, etc., affects the ratio of FTE-to-user levels,
these issues were not quantified in any of the program offices
task assignments, management plans, or technical status reports.
The program offices, in conjunction with the support service
contractor, must address the impact of these factors in future
task assignments and management plans to effectively determine
the needed FTE and associated cost.

     Management Comments. Management stated that Tables 1 and 2
were misleading because the estimated users shown for the Office
of the Secretary was far greater than the number of employees in
that organization, and that this was probably true for other
organizations as well.

     Auditor Comments. The estimated number of computer users
supported shown in the Tables were provided by the contractor,
the Office of Human Resources and Administration, and the program
offices. Included in the estimates for the Office of the
Secretary were the Secretary of Energy Advisory Board, the Office
of Executive Secretariat, and the Office of Scheduling and
Logistics. The task was listed as "Office of the Secretary"
because they were responsible for the management of the task.

                                        IG Report No. CR-B-97-04
               CUSTOMER RESPONSE FORM
The Office of Inspector General has a continuing interest in
improving the usefulness of its products. We wish to make
our reports as responsive as possible to our customers'
requirements, and, therefore ask that you consider sharing
your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness
of future reports. Please include answers to the following
questions if they are applicable to you:

1.   What additional background information about the
     selection, scheduling, scope, or procedures of the
     audit would have been helpful to the reader in
     understanding this report?

2.   What additional information related to findings and
     recommendations could have been included in this report
     to assist management in implementing corrective actions?

3.   What format, stylistic, or organizational changes
     might have made this report's overall message more clear
     to the reader?

4.   What additional actions could the Office of Inspector
     General have taken on the issues discussed in this
     report which would have been helpful?

Please include your name and telephone number so that we may
contact you should we have any questions about your
comments.

Name __________________________     Date ______________________

Telephone ______________________    Organization_______________

When you have completed this form, you may telefax it to the
Office of Inspector General at (202) 586-0948, or you may
mail it to:

                     Office of Inspector General (IG-1)
                           Department of Energy
                          Washington, D.C. 20585

                        ATTN:   Customer Relations

If you wish to discuss this report or your comments with a
staff member of the Office of Inspector General, please
contact Wilma Slaughter at (202) 586-1924.
